 Pen
   nsion Benefit
         B       Guaran
                      nty Corrporatio
                                    on
      Office
           e of Ins
                  specto
                       or Gen
                            neral
                Aud
                  dit Repo
                         ort




  Report on Internall Contro
                           ols Relatted to th
                                            he
Pension Bennefit Gua
                   aranty Corporat
                           C        tion’s Fis
                                             scal
Year 2011
     2    and 2010 Financia
                   F        al Statem
                                    ments Audit
                                            A




              Novem
                  mber 14, 2011
                                      AUD 2012
                                             2-2/FA-11-82--2
                 Report on Internal Controls Related to the
                  Pension Benefit Guaranty Corporation’s
              Fiscal Year 2011 and 2010 Financial Statements


                   Audit Report AUD-2012-2 / FA-11-82-2


                                  Contents


Section I:     Independent Auditor’s Report

Section II:    Management Comments
              Report on Internal Controls Related to the
               Pension Benefit Guaranty Corporation’s
           Fiscal Year 2011 and 2010 Financial Statements


                Audit Report AUD-2012-2 / FA-11-82-2


                              Acronyms

A&A         Assessment and Authorization
BAPD        Benefits and Payment Department
CAP         Corrective Action Plan
CFS         Consolidated Financial System
CMS         Case Management System
COOP        Continuity of Operations Program
DoPT        Date of Plan Termination
EDM         Enterprise Data Model
FIPS PUB    Federal Information Processing Standards Publication
FY          Fiscal Year
IAH         Information Assurance Handbook
IPERA       Improper Payments Elimination and Recovery Act
IPVFB       Integrated Present Value of Future Benefits
ISA         Interconnection Security Agreement
IT          Information Technology
MOU         Memorandum of Understanding
NIST        National Institute of Standards and Technology
OFFM        OMB Office of Federal Financial Management
OIG         Office of Inspector General
OIT         Office of Information Technology
OMB         Office of Management and Budget
PAM         Portfolio Accounting and Management
PAS         Premium Accounting System
PBGC        Pension Benefit Guaranty Corporation
PII         Personally Identifiable Information
PLUS        Pension Lump Sum System
PRISM       Participant Records Information Systems Management
RTM         Requirements Traceability Matrix
SOC         Security Operations Center
SP          Special Publication
TAS         Trust Accounting System
   Report on Internal Controls Related to the
    Pension Benefit Guaranty Corporation’s
Fiscal Year 2011 and 2010 Financial Statements


    Audit Report AUD-2012-2 / FA-11-82-2




                 Section I

     Independent Auditor’s Report
a1
                                    Pension Benefit Guaranty Corporation


To the Board of Directors, Management,
and Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC


We have audited the financial statements of the Pension Benefit Guaranty Corporation (PBGC
or the Corporation) as of and for the year ended September 30, 2011, and have examined
management’s assertion included in PBGC’s Annual Report about the effectiveness of the
internal control over financial reporting (including safeguarding assets) and PBGC's compliance
with certain provisions of laws, regulations, and other matters, and have issued our combined
report thereon dated November 14, 2011 (see Office of Inspector General (OIG) report AUD-
2012-1/FA-11-82-1).

We conducted our audit and examination in accordance with auditing standards generally
accepted in the United States of America; Government Auditing Standards, issued by the
Comptroller General of the United States; attestation standards established by the American
Institute of Certified Public Accountants; and Office of Management and Budget (OMB) audit
guidance.

The purpose of this report is to provide more detailed discussions of the specifics underlying the
material weaknesses reported in the internal control section of our combined report on PBGC’s
fiscal year (FY) 2011 financial statements. As reported in our combined report on PBGC’s
FY 2011 financial statements, we identified certain deficiencies in internal control that we
consider material weaknesses, and other deficiencies that we consider to be a significant
deficiency.

Summary

PBGC protects the pensions of approximately 44 million workers and retirees in more than
27 thousand private defined benefit pension plans. Under Title IV of the Employee Retirement
Income Security Act of 1974, PBGC insures, subject to statutory limits, pension benefits of
participants in covered private defined benefit pension plans in the United States. To
accomplish its mission and prepare its financial statements, PBGC relies extensively on
information technology (IT) and the effective operation of the Benefits Administration and
Payment Department (BAPD). Internal controls over these operations are essential to ensure
the confidentiality, integrity, and availability of critical data while reducing the risk of errors,
fraud, and other illegal acts.




11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com
                                                     1
                                                                                     h
The slow progress of mitigating PBGC’s systemic security control weaknesses and the serious
internal control weaknesses in BAPD posed an increasing and substantial risk to PBGC’s ability
to carry out its mission during FY 2011. The extended time required and the lack of meaningful
progress in PBGC’s multi-year approach to correct previously reported deficiencies at the root
cause level, introduced additional risks. These include technological obsolescence, inability to
execute corrective actions, breakdown in communications and poor monitoring. BAPD’s weak
internal controls create an environment that could lead to fraud, waste, and abuse.

PBGC’s historical decentralized approach to system development and configuration
management exacerbated control weaknesses and encouraged inconsistency in implementing
strong technical controls and best practices. The influx of 620 plans for over 800,000
participants from 2002-2005, contributed to PBGC’s disjointed IT development and
implementation strategy. The mandate to meet PBGC’s mission objectives by implementing
technologies to receive the influx of plans superseded proper enterprise planning and IT
security controls. The result was a series of stovepipe solutions built upon unplanned and poorly
integrated heterogeneous technologies with varying levels of obsolescence.

The Corporation continued its implementation of an enterprise multi-year corrective action plan
(CAP) to address IT security issues at the root cause level. PBGC management realizes these
weaknesses will continue to pose a threat to its environment for several years while corrective
actions are being implemented. PBGC needs to implement interim corrective actions to ensure
fundamental security weaknesses do not worsen as the CAP is being implemented.

PBGC performed a more rigorous and thorough assessment and authorization (A&A) process,
formerly referred to as a certification and accreditation process. This process identified
significant fundamental security control weaknesses for its general support systems many of
which were reported in prior year’s audits. These weaknesses remain unresolved. PBGC
reports that the Corporation is in the process of performing A&As on its major applications.

We continued to find deficiencies in the areas of security management, access controls,
configuration management, and segregation of duties. Control deficiencies were also found in
policy administration and the A&As.

An effective entity-wide security management program requires a coherent strategy for the
architecture of the IT infrastructure, and the deployment of systems. The implementation of a
coherent strategy provides the basis and foundation for the consistent application of policy,
controls, and best practices. PBGC first needs to develop and implement a framework to
improve its security posture. This framework will require time for effective control processes to
mature.

Additionally, serious internal control weaknesses in BAPD’s operations were identified by the
Office of the Inspector General (OIG) and others during FY 2011. These significant control
weaknesses introduced additional risks to PBGC. Specific deficiencies included errors in
valuation of plan assets, lack of documentation supporting benefit payments, errors in benefit
calculations, and poor oversight of the Pension and Lump Sum System (PLUS). In response to
weaknesses identified by OIG, BAPD is currently undergoing a strategic review that may
address organizational structure and operational issues. BAPD stated it will develop a plan in
FY 2012 that will address the deficiencies noted in the financial statement audit, Improper
Payments Elimination and Recovery Act (IPERA) mandated review, and other internal reviews.
This plan is intended to focus on fundamental issues such as internal controls, processes,
contractor oversight, and training and staff competencies.

                                               2
Based on our findings, we are reporting that the deficiencies in the following areas constitute
three material weaknesses for FY 2011:

   1. Entity-wide Security Program Planning and Management
   2. Access Controls and Configuration Management
   3. Benefits Administration and Payment Department Operations

We are also reporting the deficiencies in the following area to be a significant deficiency for FY
2011:

   4. Integrated Financial Management Systems

Detailed findings and recommendations follow.

1. Entity-wide Security Program Planning and Management

   An entity-wide information security management program is the foundation of a security
   control structure and a reflection of senior management’s commitment to addressing
   security risks. The security management program should establish a framework and
   continuous cycle of activity for assessing risk, developing and implementing effective
   security procedures, and monitoring the effectiveness of these procedures. Overall policies
   and plans are developed at the entity-wide level. System and application-specific
   procedures and controls implement the entity-wide policy. Through the Federal Information
   Security Management Act of 2002, Congress requires each Federal agency to establish an
   agency-wide information security program to provide security to the information and
   information systems that support the operations and assets of the agency, including those
   managed by a contractor or other agency. OMB Circular No. A-130, Appendix III, Security of
   Federal Automated Information Resources, requires agencies to implement and maintain a
   program to assure that adequate security is provided for all agency information collected,
   processed, transmitted, stored, or disseminated in general support systems and major
   applications.

   PBGC continued the implementation of its CAP to address fundamental weaknesses in its
   entity-wide security program planning and management. During FY 2011, PBGC began the
   implementation of a more rigorous and thorough A&A process. Through this process, PBGC
   identified significant fundamental security control weaknesses for its general support
   systems, many of which were reported on in prior years’ audits. While this is an important
   step in the planning process, these security control weaknesses remain unresolved and
   PBGC’s efforts lack sufficient meaningful incremental progress. PBGC reports that they are
   in the process of performing A&As on its major applications. The slow rate of progress has
   introduced additional risks including technological obsolescence, inability to execute
   corrective actions, breakdown in communications and poor monitoring.

   In prior years, PBGC’s entity-wide security program lacked focus and a coordinated effort to
   adequately resolve control deficiencies. These deficiencies, which persisted throughout FY
   2011, prevented PBGC from implementing effective security controls to protect its
   information from unauthorized access, modification, and disclosure. Without a well-designed
   and fully implemented information security management program, there is increased risk
   that security controls are inadequate; responsibilities are unclear, misunderstood, and
   improperly implemented; and controls are inconsistently applied. Such conditions may lead


                                                3
to insufficient protection of sensitive or critical resources and disproportionately high
expenditures for controls over low-risk resources.

The specific weaknesses we found that contributed to the material weakness and our
recommendations to correct them are as follows:

•   PBGC had not completed A&As for any major applications.

•   PBGC had not completed A&As for the general support systems hosted by third party
    processors on behalf of PBGC.

•   National Institute of Standards and Technology (NIST) special publication (SP) 800-53,
    Recommended Security Controls for Federal Information Systems, identifies 172
    controls within 17 security control families. PBGC identified 130 of these controls as their
    common security controls. While PBGC has stated they anticipate completion of the
    CAP in early 2015, as of the end of FY 2011, they have not documented the details of
    the specific actions needed to complete and confirm the design, implementation, and
    operating effectiveness of these identified common security controls,

•   Weaknesses in PBGC’s infrastructure design and deployment strategy for systems and
    applications adversely affected its ability to effectively implement common security
    controls across its systems and applications. Without full development and
    implementation, security controls are inadequate; responsibilities are unclear,
    misunderstood, and improperly implemented; and controls are inconsistently applied.
    Such conditions lead to insufficient protection of sensitive or critical resources or
    disproportionately high expenditures for controls. Consequently, as PBGC had not
    completed and confirmed the design, implementation, and operating effectiveness of its
    common security controls, management cannot have confidence that the controls were
    implemented.

    Recommendations:

    o   Effectively communicate to key decision makers the state of PBGC’s IT infrastructure
        and environment to facilitate the prioritization of resources to address fundamental
        weaknesses. (OIG Control # FS-09-01)

    o   Document and execute the details of the specific actions needed to complete and
        confirm the design, implementation, and operating effectiveness of all 130 identified
        common security controls. (OIG Control # FS-08-01 *Modified)1

    o   Develop a process to review and validate reported progress on the implementation of
        the common security controls. Implement a strategy to test and document the
        effectiveness of each new control implemented. (OIG Control # FS-09-02)

    o   Develop and implement a well-designed security management program that will
        provide security to the information and information systems that support the
        operations and assets of the Corporation, including those managed by contractors or
        other Federal agencies. (OIG Control # FS-09-03)




                                             4
    o   Complete the development and implementation of the redesign of PBGC’s IT
        infrastructure, and the procurement and implementation of technologies to support a
        more coherent approach to providing information services and information system
        management controls. (OIG Control # FS-09-04)

    o   Implement an effective review process to validate the completion of the A&A
        packages for all major applications. The review should not be performed by an
        individual associated with the performance of the A&A, or by someone who could
        influence the results. This review should be completed for all components of the work
        performed to ensure substantial documentation is available that supports and
        validates the results obtained. (OIG Control # FS-08-02 *Modified)

    o   Ensure that adequate documentation is maintained which supports, substantiates,
        and validates all results and conclusions reached in the A&A process for all major
        applications. (OIG Control # FS-09-05 *Modified)

    o   Establish and implement comprehensive procedures and document the roles and
        responsibilities that ensure oversight and accountability in the A&A review process
        for major applications. Retain evidence of oversight reviews and take action to
        address erroneous or unsupported reports of progress. (OIG Control # FS-09-06
        *Modified)

    o   Maintain an accurate and authoritative inventory list of major applications and
        general support systems. Ensure the list is disseminated to responsible staff and
        used consistently throughout PBGC Office of IT (OIT) operations. (OIG Control #
        FS-09-07)

    o   Implement an independent and effective review process to validate the completion of
        the A&A packages for all major applications. (OIG Control # FS-08-03 *Modified)

    o   Implement an independent and effective review process to validate the completion of
        the A&A packages for general support systems hosted on behalf of PBGC by third
        party processors. The effective review should include examining host and general
        controls risk assessments. (OIG Control # FS-08-03 *Modified)

•   Information security policies and procedures were not fully disseminated and
    implemented. PBGC is not able to effectively enforce compliance for security awareness
    training. PBGC currently has a cumbersome and error-prone manual process to account
    for personnel who have completed security awareness training. The process is
    ineffective and limits PBGC’s ability to ensure that all required personnel have
    completed security awareness training.

    Lack of security awareness can lead to increased risk of security breaches and exposure
    to fraud. Controls may not be placed in operation as mandated by PBGC policies.

    Recommendation:

    o   Continue to disseminate the awareness of PBGC’s security policies and procedures
        through adequate training. (OIG Control # FS-07-04 *Modified)



                                            5
   •   In FY 2010, PBGC’s benefit payments service provider (service provider) implemented a
       security operations center (SOC) outside of the United States (US), without providing
       PBGC adequate advance notice. In FY 2011, PBGC completed a risk assessment but
       did not contain adequate evidence to verify and validate the technical security risks of
       the SOC. Because the SOC has some responsibility for monitoring security-related
       events associated with the PLUS application and components of its system boundary, it
       is important PBGC assess risks to its systems and implement mitigating controls to
       ensure compliance with PBGC’s policies and procedures.

       Recommendations:

       o   Develop and implement an immediate plan of action to address the potential security
           risk posed by locating the SOC outside of the US. (OIG Control # FS-10-01)

       o   Review PBGC contracts to ensure contractors are required to comply with PBGC
           information security standards and the Federal Information Security Management Act
           (FISMA). (OIG Control #FS-10-02)

       o   Ensure that adequate controls in the design and implementation of the SOC are in
           place to protect PBGC PLUS. (OIG Control Number # FS-11-01)

   •   PBGC has not executed interconnection security agreements (ISA) or memorandums of
       understanding (MOU) between all external organizations whose systems interconnect
       with PBGC’s systems. Controls to require such agreements do not exist.

       PBGC is in the process of planning and documenting security agreements for
       interconnection with all external organizations’ systems. In the absence of an ISA and
       MOU, either party (PBGC or external system owner) may be unfamiliar with the technical
       requirements of the interconnection and the details that may be required to provide
       overall security for systems that are interconnected.

       Recommendation:

       o   Develop controls and implement an ISA and MOU with all external organizations
           whose systems connect to PBGC’s systems. (OIG Control # FS-10-03 *Modified)

2. Access Controls and Configuration Management

   Although access controls and configuration management controls are an integral part of an
   effective information security management program, access controls remain a systemic
   problem throughout PBGC. PBGC’s decentralized approach to system development, system
   deployments, and configuration management created an environment that lacks a cohesive
   structure in which to implement controls and best practices. Weaknesses in the IT
   environment contributed significantly to deficiencies in system configuration, segregation of
   duties, role-based access controls, and monitoring. Furthermore, PBGC’s information
   systems are overlapping and duplicative, employing obsolete and antiquated technologies
   that are costly to maintain. The state of PBGC’s IT environment led to increased IT staffing
   needs, manual workarounds, reconciliations, extensive manipulation, and excessive manual
   processing that have been ineffective in providing adequate compensating controls to
   mitigate system control weaknesses.


                                              6
Access controls should be in place to consistently limit, detect inappropriate access to
computer resources (data, equipment, and facilities), and monitor access to computer
programs, data, equipment, and facilities. These controls protect against unauthorized
modification, disclosure, loss, or impairment. Such controls include both logical and physical
security controls to ensure that Federal employees and contractors will be given only the
access privileges necessary to perform business functions. Federal Information Processing
Standards Publication (FIPS PUB) 200, Minimum Security Requirements for Federal
Information and Information Systems, specifies minimum access controls for Federal
systems. FIPS PUB 200 requires PBGC’s information system owners to limit information
system access to authorized users.

Industry best practices, NIST SP 800-64, Security Considerations in the System
Development Life Cycle, and other Federal guidance recognize the importance of
configuration management when developing and maintaining a system or network. Through
configuration management, the composition of a system is formally defined and tracked to
ensure that an unauthorized change is not introduced. Changes to an information system
can have a significant impact on the security of the system. Documenting information
system changes and assessing the potential impact on the security of the system, on an
ongoing basis, is an essential aspect of maintaining the security posture. An effective entity-
wide configuration management and control policy and associated procedures are essential
to ensuring adequate consideration of the potential security impact of specific changes to an
information system. Configuration management and control procedures are critical to
establishing an initial baseline of hardware, software, and firmware components for the
entity and subsequently controlling and maintaining an accurate inventory of any changes to
the system.

Inappropriate access and configuration management controls do not provide PBGC with
sufficient assurance that financial information and financial assets are adequately
safeguarded from inadvertent or deliberate misuse, fraudulent use, improper disclosure, or
destruction.

The specific weaknesses we identified in prior years that contributed to the material
weakness identified in FY 2011 and our recommendations to correct them are as follows:

•   PBGC’s configuration management controls are labor intensive and ineffective.
    Weaknesses in the design of PBGC’s infrastructure and deployment strategy for
    systems and applications created an environment where strong technical controls and
    best practices cannot be effectively implemented. Configuration management controls
    are therefore not consistently implemented across PBGC’s general support systems.
    PBGC’s three IT environments (development, test, and production) do not share
    common server configurations; therefore, management cannot rely on results obtained
    in the development or test environments prior to deployment in production. Overall, the
    PBGC environment suffers from inadequate configuration, roles, privileges, logging,
    monitoring, file permissions, and operating system access.

    PBGC’s infrastructure does not adequately segregate the production, development and
    testing environments. The current environment does not provide adequate controls in
    which to implement an effective application development and change control program.




                                            7
Significant weaknesses in configuration management noted in prior years and continuing
throughout FY 2011, included the following:

−   Sensitive program scripts and utilities, open directories, and unsafe service accounts
    were not restricted.
−   Unnecessary network services and duplicate groups with privileged system access
    were not removed.
−   Baseline security reports were not being created and reviewed.
−   Ownership of critical files, directories, and permissions were inappropriately
    configured.
−   The root account could be logged into from multiple virtual consoles.
−   The database replication from headquarters to the COOP installation is lacking in
    functionality and completeness, and would require a significant amount of subject
    matter expert manual intervention to failback to headquarters in the event of an
    actual system failure.
−   Developers had access to sensitive information in production.
−   The IT system life cycle methodology is not consistently implemented across all
    projects within PBGC. We reviewed the Product Quality Assurance audit summary of
    the HP Service Manager 7 software implementation and noted that various critical
    components were lacking such as:
    o Weaknesses noted in the approval, configuration management and change
        control processes.
    o Failure to obtain approval signatures on key documents and test artifacts.
    o Incomplete Requirements Traceability Matrix (RTM).
    o Failure to update the RTM resulting in lack of traceability between the
        requirements and the test cases.
    o Lack of evidence that key test activities were conducted in the test environment
        as planned.
−   Backout plans for reversing system changes, in case of an unexpected situation, are
    not consistently documented.

Controls are not in place to ensure adequate consideration of the potential security
impacts due to specific changes to an information system or its surrounding
environment. PBGC is exposed to increased risk of data modification or deletion.
Unauthorized changes could occur undetected. Applications and critical business
processes may not be restored in a timely manner in the event of a disaster.

Recommendations:

o   Develop and implement procedures and processes for the consistent implementation
    of common configuration management controls to minimize security weaknesses in
    general support systems. (OIG Control # FS-07-07)

o   Develop and implement a coherent strategy for correcting IT infrastructure
    deficiencies and a framework for implementing common security controls, and
    mitigating the systemic issues related to access control by strengthening system
    configurations and user account management for all of PBGC’s information systems.
    (OIG Control # FS-09-12)




                                        8
    o   Establish baseline configuration standards for all of PBGC’s systems. (OIG Control
        # FS-09-13)

    o   Review configuration settings and document any discrepancies from the PBGC
        configuration baseline. Develop and implement corrective actions for systems that do
        not meet PBGC’s configuration standards. (OIG Control # FS-09-14)

    o   Ensure test, development and production databases are appropriately segregated to
        protect sensitive information and fully utilized to increase system performance.
        (OIG Control # FS-09-15)

    o   Establish interim procedures to implement available compensating controls (such as
        establishing a test team to verify developer changes in production) until a
        comprehensive solution to adequately segregate test, development and production
        databases can be implemented. (OIG Control # FS-09-16)

•   PBGC’s policies and practices have not effectively restricted the addition of unnecessary
    and generic accounts to systems in production. Consequently, the number of
    unnecessary and generic accounts grew over the years. PBGC management has not
    determined if the removal of all legacy generic accounts would disrupt production
    activities. PBGC has taken action to review generic accounts on the general support
    system, removing those that are unnecessary and approving those that are necessary,
    however, more work is needed to ensure that all unnecessary and generic accounts are
    removed. Management stated that the process for recertifying accounts will include
    generic accounts, service accounts, user accounts and system accounts.

    Failure to identify and remove unnecessary accounts from the system could result in
    PBGC’s systems being at an increased risk for unauthorized access, modification, or
    deletion of sensitive system and/or participant information.

    Recommendation:

    o   Continue to remove unnecessary user and/or generic accounts. (OIG Control # FS-
        07-08)

•   Controls are not consistently implemented to appropriately segregate duties and grant
    rights and privileges commensurate with the job functions and responsibilities. PBGC
    does not have a coherent strategy for enforcing segregation of duties through strong
    technical controls in its applications and general support systems. Password
    management controls are not consistently implemented and are not standardized.
    PBGC’s historical decentralized approach to system development and configuration
    management has exacerbated inconsistency and control weaknesses in implementing
    strong technical controls to enforce segregation of incompatible duties.

    Incompatible duties and improper password management increase the potential risk of
    fraud, errors and ommissions.




                                            9
    Recommendations:

    o   Consistently implement controls to appropriately segregate duties and grant rights
        and privileges commensurate with the job functions and responsibilities.
        (OIG Control # FS-07-09)

    o   Assess the risk associated with the lack of segregation of duties, password
        management, and overall inadequate system configuration. Discuss risk with system
        owners and implement compensating controls wherever possible. If compensating
        controls cannot be implemented the system owner should sign-off indicating risk
        acceptance. (OIG Control # FS-09-17 *Modified)

•   Some developers have access to the production environment, which exposes PBGC to
    the risk of unauthorized modification of the application, the circumvention of critical
    controls, and unnecessary access to sensitive data. Weaknesses in the design of
    PBGC’s infrastructure and deployment strategy for legacy systems and applications
    created an environment where developers have unrestricted access to production.
    PBGC has not developed and implemented adequate compensating controls to restrict
    developer’s access to production. PBGC has not fully resolved infrastructure design
    issues, nor have they developed and implemented a coherent program to manage and
    maintain legacy applications.

    Failure to appropriately restrict privileged access to the production environment could
    result in unauthorized access/modification/deletion of sensitive system and/or participant
    information and the release of harmful code into the production environment.

    Recommendations:

    o   Appropriately restrict developers’ access to production environment to only
        temporary emergency access. (OIG Control # FS-07-10)

    o   Assess developers’ access to production on all PBGC systems and determine if
        access is required based on the security principles “need to know and least
        privilege”. If developers require access to a specific application, the reason should be
        documented and management should sign-off indicating acceptance of the risk(s). In
        all other instances developer access to production should be immediately removed.
        (OIG Control # FS-09-18)

•   Controls are not consistently applied to ensure that authentication parameters for
    general support systems (e.g. Novell, Windows, SUN Solaris, Oracle, etc.) and
    applications comply with the Information Assurance Handbook (IAH). PBGC’s
    decentralized approach to system development and configuration management has
    made it particularly difficult to implement consistent technical controls across PBGC’s
    many systems, platforms, and applications.

    Failure to follow secure build standards and reassign or remove unowned user files
    provides internal and external attackers additional paths into PBGC’s systems and could
    result in an increased risk of unauthorized access, modification, or deletion of sensitive
    system and participant information.



                                            10
    Recommendations:

    o   Consistently apply controls to ensure that authentication parameters for PBGC’s
        general support systems (e.g. Novell, Windows, Sun Solaris, Oracle, etc.) and
        applications comply with the IAH. (OIG Control # FS-07-11)

    o   Implement a manual review process whereby OIT periodically reviews systems for
        compliance with baseline settings. (OIG Control # FS-09-19)

    PBGC’s configuration management weaknesses have contributed significantly to its
    inability to effectively implement controls to ensure the consistent removal and locking
    out of generic or dormant accounts. The lack of controls to remove/disable inactive
    accounts and dormant accounts exposes PBGC’s systems to exploitation and
    compromise.

    Recommendation:

    o   For the remaining systems, apply controls to remove/disable inactive and dormant
        accounts after a specified period in accordance with the IAH. (OIG Control # FS-07-
        12 *Modified)

•   The OIT recertification process is incomplete and only addresses generic and service
    accounts; it does not include all user and system accounts. In addition, the
    Recertification of User Access Process, version 4.0, does not explicitly state that all
    accounts (e.g. user, system, and service) across all platforms and applications will be re-
    certified annually. PBGC’s infrastructure design and configuration management
    weaknesses have contributed significantly to its inability to effectively implement controls
    to recertify all user and system accounts.

    Unauthorized users could gain access to PBGC’s data and personally identifiable
    information (PII). Without periodic recertification of accounts (user, generic, service and
    system) management does not have adequate assurance that only current authorized
    users have access to PBGC resources.

    Recommendation:

    o   Complete the implementation of the recertification process for all user and system
        accounts. Continue to perform annual recertification and include all PBGC’s
        accounts (e.g. user, generic, service, and systems accounts) for general support
        systems and major applications. (OIG Control # FS-07-13)

•   Vulnerabilities found in key databases and applications include weaknesses in
    configuration, roles, privileges, auditing, file permissions, and operating system access.
    These PBGC system vulnerabilities are caused by an ineffective deployment strategy in
    the development, test, and production environments. Ineffective system deployments
    have resulted in an environment that is in disarray.

    Security control weaknesses and vulnerabilities in key databases remain unresolved.
    These control weaknesses are scheduled to be corrected in 2013. These weaknesses



                                            11
    expose PBGC to increased risk of data modification or deletion. Unauthorized changes
    could occur and not be detected.

    Recommendations:

    o   Implement controls to remedy vulnerabilities noted in key databases and applications
        such as weaknesses in configuration, roles, privileges, auditing, file permissions, and
        operating system access. (OIG Control # FS-07-14)

    o   Implement controls to remedy weaknesses in the deployment of servers,
        applications, and databases in the development, test, and production environments.
        (OIG Control # FS-09-20)

•   Access request authorizations were not appropriately documented. PBGC has not fully
    implemented controls to ensure Enterprise Local Area Network Forms are properly
    documented and maintained.

    Failure to ensure proper authorization may expose PBGC’s systems to inadequate
    segregation of incompatible duties and unauthorized users having access to PBGC data
    and PII.

    Recommendation:

    o   Ensure that adequate documentation of access authorization is maintained by
        implementing proper monitoring and enforcement measures in compliance with
        approved policies and procedures. (OIG Control # FS-07-15)

•   PBGC lacks an effective process to track contractors throughout their employment at
    PBGC, including appropriate notifications of start dates and separation. PBGC updated
    its directive PM 05-1, PBGC Entrance on Duty and Separation Procedures for Federal
    and Contract Employees, in FY 2011 to provide for the effective enforcement of controls
    designed to track entrance and separation of all Federal and contract employees.
    However, the implementation PM 05-1 has not reached a level of maturity to test and
    validate the effectiveness of these controls. Without full implementation, security controls
    are inadequate to prevent contractors from having unauthorized access to PBGC’s
    systems, applications, and facilities.

    Recommendation:

    o   Update and enforce directive PM 05-1, PBGC Entrance on Duty and Separation
        Procedures for Federal and Contract Employees, to ensure contract personnel can
        be tracked effectively. Also, ensure a formal Entrance on Duty and Separation
        Clearance process is followed. (OIG Control # FS-07-16)

•   Periodic logging and monitoring of security-related events for PBGC’s applications were
    inadequate for CFS, Premium Accounting System (PAS), Trust Accounting System
    (TAS), Participant Records Information Systems Management (PRISM), and Integrated
    Present Value of Future Benefits (IPVFB) systems. PBGC’s IT infrastructure consists of
    multiple legacy systems and applications (e.g. PAS, TAS, IPVFB, PRISM, etc.) that do
    not have a coherent architecture for management and security.


                                            12
    Controls are not in place to ensure adequate consideration of the potential security
    impacts due to specific changes to an information system or its surrounding
    environment. PBGC is exposed to increased risk of data modification or deletion.
    Unauthorized changes could occur, undetected.

    Recommendation:

    o   Implement a logging and monitoring process for application security-related events
        and critical system modifications (e.g. CFS, PAS, TAS, PRISM, and IPVFB).
        (OIG Control # FS-07-17)

•   The application virtualization/application delivery product Citrix MetaFrame Presentation
    Server used by PBGC’s benefit payments service provider to connect to its benefit
    payments system, PLUS, reached its end of life date on December 31, 2009. PBGC did
    not include the Citrix MetaFrame Presentation Server in the system boundary when
    conducting the A&A of the PLUS application. Although continuous monitoring was
    implemented, no alerts were provided to PBGC about the application
    virtualization/application becoming obsolete and the potential security risk to PLUS.
    Obsolete software may expose PBGC’s infrastructure to a security-related vulnerability.
    PBGC is exposed to increased risk of data modification or deletion. Unauthorized
    changes could occur undetected.

•   Privileged TeamConnect group accounts use shared accounts to grant access to users.
    The activity by these privileged users cannot be tracked and/or traced to an individual
    user. Additionally, TeamConnect developers have access to both the development and
    production system. Malicious changes could be made without detection.

    Recommendations:

    o   Replace the Citrix MetaFrame presentation server. (OIG Control #FS-10-04)

    o   Include the application virtualization/application delivery product used by the benefit
        payments service provider to access the PLUS application in the system boundary.
        (OIG Control # FS-10-05)

    o   Establish unique accounts for each user in TeamConnect. (OIG Control Number
        FS-11-02)

    o   Restrict developer’s access to production. (OIG Control Number FS-11-03)

    o   Implement a log review process that does not rely on the TeamConnect’s developers
        reviewing the logs. (OIG Control Number FS-11-04)

    o   Implement compensating controls for log and review of changes made by powerful
        shared accounts. (OIG Control Number FS-11-05)




                                            13
3. Benefits Administration and Payment Department Operations

   BAPD had serious internal control weaknesses identified by OIG and others during FY 2011
   that introduced additional risks to PBGC. Specific deficiencies included errors in valuation of
   plan assets, lack of documentation supporting benefit payments, errors in benefit
   calculations, and poor oversight of PLUS. In response to weaknesses identified by OIG,
   BAPD is currently undergoing a strategic review that may address organizational structure
   and operational issues. BAPD stated it will develop a plan in FY 2012 that will address the
   deficiencies noted in the financial statement audit, IPERA mandated review, and other
   internal reviews. This plan is intended to focus on fundamental issues such as internal
   controls, processes, contractor oversight, and training and staff competencies.

   Internal control weaknesses were pervasive throughout BAPD; however many of the
   weaknesses identified as part of our financial statement audit stemmed from poor
   management of contractors. Effective oversight requires good communications with
   contractors on their responsibilities for contract compliance and providing timely information
   to PBGC that may affect the controls and/or PBGC’s environment. Contracted services are
   an extension of PBGC’s internal controls. PBGC’s management does not always consider
   the exposure and risk that contractors introduce into its environment and how to manage
   that risk. PBGC does not properly review, assess, and monitor contractor’s internal controls
   related to contracted services.

   During FY 2011 we noted deficiencies in BAPD’s oversight of contracted reviews of asset
   values at the date of plan termination (DoPT). These deficiencies were caused by a failure
   to establish and apply a quality review process to verify and validate the satisfactory
   completion of contracted DoPT plan asset valuation audits, and a failure to establish a
   detailed process to ensure the consistent application of a methodology to determine the fair
   market value of plan asset at DoPT as required by regulation. Specific deficiencies noted
   include the following:

   •   PBGC did not exercise due professional care in the conduct and oversight of contracted
       audits of asset values at DoPT. PBGC accepted plan asset values based on audits with
       audit procedures not performed or not properly documented. Audits were identified,
       which were accepted, that that did not meet contractual requirements to conduct the
       audit consistent with Generally Accepted Government Auditing Standards.

   •   There were instances where no corroborating evidence existed that PBGC personnel
       reviewed the contractors’ work; however, plan asset values were approved and used in
       the determination of plan benefit payments and the present value of future benefits.

   •   PBGC has not developed a plan to ensure the proper oversight of future plan asset
       valuations and to ensure the identification and correction of past errors.

       Recommendations:

       o   Implement procedures to verify that future contracts for plan asset valuations clearly
           outline expectations and deliverables in the statement of work. (OIG Control
           Number # FS-11-06)




                                               14
   o   Develop a quality assurance program aimed to ensure that plan asset valuations
       meet the regulatory standard of determining fair market value based on the method
       that most accurately reflects fair market value. (OIG Control Number # FS-11-07)

   o   Enhance and formalize efforts to improve staff skills, whether Federal or contactor, in
       planning the valuation reviews, understanding the risks, and developing appropriate
       scopes and procedures to support credible and reliable results. (OIG Control
       Number # FS-11-08)

   o   Identify those plans that might potentially have a pervasive misstatement to the
       financial statements if DOPT asset values were originally misstated. Management
       should then re-evaluate the DOPT asset values for those identified plans and
       consider the impact of any known differences on the financial statements. (OIG
       Control Number # FS-11-09)

   A strong control environment is imperative to provide reasonable assurance that funds
   are not lost because of improper payments, whether fraudulent or erroneous. A critical
   element of an effective control environment includes a process to accumulate and
   archive documentation, including evidencing appropriate review and approval. Specific
   deficiencies noted include the following:

       During FY 2011 PBGC performed an IPERA mandated review which resulted in the
       identification of numerous instances where benefit payments were not supported by
       sufficient documentation necessary to verify the accuracy of the payment, and/or
       lacked evidence of appropriate review and approval. A statistical extrapolation of the
       sample results was performed and this statistical projection indicated a serious
       condition exists.

       In our testing of benefit calculations, we noted several instances where documents
       relied upon in the calculations were not archived in the Image Processing System.

   Lack of appropriate documentation results in limited physical and financial controls, and
   could lead to improper benefit payments, as well as misunderstandings and conflicts
   with participants regarding the amounts and timing of their benefit payments. Best
   practice maintenance of source records should include a consolidation of all relevant
   data in a common location.

   Recommendations:

   o   Modify the BAPD Operations Manual to explicitly incorporate policies and procedures
       to archive source records. The BAPD Operations Manual details the process of
       creating the participant database, but does not explicitly require the archival of
       source records. (OIG Control Number # FS-11-10)

   o   Ensure adequate documentation is maintained, which supports, substantiates, and
       validates benefit payment calculations by implementing proper monitoring and
       enforcement measures in compliance with approved policies and procedures. (OIG
       Control # FS-11-11)

We noted deficiencies in BAPD’s benefit determination process resulting in errors in
calculated benefits. Specific deficiencies noted include the following:

                                           15
•   Testing of benefit calculations revealed instances where benefit determinations were
    incorrectly calculated due to errors in the application of plan provisions.

    Recommendation:

    o   Improve the training of persons tasked with the calculation and review of benefit
        determinations to ensure their skills are matched with the complexities of the tasks
        assigned. (OIG Control Number FS-11-12)

•   An MOU between PBGC and the service provider for the PLUS application was
    executed within PBGC between PBGC federal employees and not with the service
    provider. This MOU is needed to document the service provider’s responsibilities and
    security requirements for PLUS, however, it serves no purpose since the service
    provider did not sign it. Further, executing the MOU between federal employees and
    omitting the service provider demonstrates a lack of understanding of the purpose and
    importance of the agreement.

    Recommendation:

    o   Obtain a contract system representative signature on the PLUS MOU or
        alternatively, develop an interconnection security agreement (ISA) between PBGC
        and the benefit payments service provider for the connection. (OIG Control Number
        FS-11-13)

•   PBGC did not review the service provider personnel’s access to the PLUS system to
    ensure the personnel were appropriately recertified. PBGC relies upon the service
    provider to test recertification and to assert that individuals have the proper access to the
    system. PBGC performed no further review to test the service provider’s assertion that
    user access is appropriate. The risk to PBGC is increased as the service provider’s
    PLUS users typically have greater access to the PLUS system than users at PBGC.

    Recommendation:

    o   Annually review contractor access recertifications for the benefit payments service
        provider employees with access to PLUS. (OIG Control Number FS-11-14)

•   PBGC did not conduct a review of the PLUS System Contingency Plan until July 2011
    when we requested the documentation as part of the financial statement audit. Even
    after receipt of the document, PBGC did not evaluate the scope of the contingency plan
    nor did PBGC assess the plan’s compliance with NIST SP 800-34 requirements. Without
    a full review of the PLUS System Contingency Plan, PBGC cannot assess the adequacy
    of the plan and may not be able to recover from a disaster.

    Recommendation:

    o   Review the PLUS contingency plan for compliance with NIST SP 800-34
        requirements. (OIG Control Number FS-11-15)

•   Our assessment of the information PBGC provided as support for assessing the risk of
    operating a SOC in a foreign country found that PBGC’s risk assessment was not


                                             16
      adequate. Information relied upon included a generic overview of connectivity which did
      not demonstrate specifics on encryption end points, protocol filters, source and
      destination filters and intervening infrastructure component locations critical to the
      analysis of any design investigations. Without detailed network documentation of the
      SOC, SSC and PBGC and are unable to adequately assess the risks of the SOC
      implementation. Further, PBGC did not address the verification of background checks for
      the employees of the foreign country SOC and PBGC was unable to adequately assess
      the risks of the SOC implementation. Without proper background checks, PBGC may
      place trust in an individual who is a security risk. Without a proper assessment of the risk
      of a SOC implementation, PBGC may not be able to monitor or implement adequate
      security controls.

      Recommendations:

      o   Develop and implement a policy to identify and document the risks associated with
          PBGC operations performed in foreign countries, ensure appropriate management
          review, and take appropriate actions to mitigate identified risks. (OIG Control
          Number # FS-11-16)

      o   For the PLUS SOC operating in a foreign country revise the existing risk assessment
          to identify and document risks, and take appropriate actions. (OIG Control Number
          # FS-11-17)

4. Integrated Financial Management Systems

   The risk of inaccurate, inconsistent, and redundant data is increased because PBGC lacks a
   single integrated financial management system. The current system cannot be readily
   accessed and used by financial and program managers without extensive manipulation,
   excessive manual processing, and inefficient balancing of reports to reconcile
   disbursements, collections, and general ledger data.

   OMB Circular A-127, Financial Management Systems, requires that Federal financial
   management systems be designed to provide for effective and efficient interrelationships
   between software, hardware, personnel, procedures, controls, and data contained within the
   systems. The Circular states:

      A financial system, hereafter referred to as a core financial system, is an information
      system that may perform all financial functions including general ledger management,
      funds management, payment management, receivable management, and cost
      management. The core financial system is the system of record that maintains all
      transactions resulting from financial events. It may be integrated through a common
      database or interfaced electronically to meet defined data and processing requirements.
      The core financial system is specifically used for collecting, processing, maintaining,
      transmitting, and reporting data regarding financial events. Other uses include
      supporting financial planning, budgeting activities, and preparing financial statements.
      Any data transfers to the core financial system must be: traceable to the transaction
      source; posted to the core financial system in accordance with applicable guidance from
      the Federal Accounting Standards Advisory Board; and in the data format of the core
      financial system.



                                              17
OMB’s Office of Federal Financial Management (OFFM), Core Financial System
Requirements, lists the following financial management system performance goals, outlined
in the Framework document, applicable to all financial management systems. All financial
management systems must do the following:

•   Demonstrate compliance with accounting standards and requirements.

•   Provide timely, reliable, and complete financial management information for decision
    making at all levels of government.

•   Meet downstream information and reporting requirements with transaction processing
    data linked to transaction engines.

•   Accept standard information integration and electronic data to and from other internal,
    governmentwide, or private-sector processing environments.

•   Provide for “one-time” data entry and reuse of transaction data to support downstream
    integration, interfacing, or business and reporting requirements.

•   Build security, internal controls, and accountability into processes and provide an audit
    trail.

•   Be modular in design and built with reusability as an objective.

•   Meet the needs for greater transparency and ready sharing of information.

•   Scale to meet internal and external operational, reporting, and information requirements
    for both small and large entities.

Because PBGC has not fully integrated its financial systems, PBGC’s ability to accurately
and efficiently accumulate and summarize information required for internal and external
financial reporting is impacted. Many of the weaknesses included in this report were
reported in prior years. The specific weaknesses we found that contributed to the material
weakness and our recommendations to correct them are as follows:

Lack of standard data classifications and common data elements:

•   PBGC continues to work towards a logical database model (Enterprise Data Model
    (EDM). Elements of the EDM include the general ledger, purchases, portfolio
    management, payroll, investment management, financial institutions, budgeting,
    accounts receivable, and accounts payable. Until the development and implementation
    of the EDM is complete, the current systems have no centralized data catalog defining
    data elements or a common data access method available for current databases.

•   The current decentralized database structure may lead to erroneous financial and
    participant data. For example, the same data elements are required to be reformatted or
    are used for different purposes across PBGC's various applications.

•   The current decentralized database structure may lead to outdated financial or
    participant data. Because participant data must be reformatted and distributed to

                                            18
    multiple PBGC systems, users may be relying on outdated information to make business
    decisions.

Duplication of transaction entry:

•   Probable and multi-employer plan data initially entered into IPVFB must be manually
    re-entered into a spreadsheet and then manually entered into CFS as adjusting journal
    entries.

•   Plan data initially entered into the Case Management System (CMS) application must be
    re-entered into the TAS application's portfolio header.

•   Plan contingency listings are determined using data extracted from PAS. However, plans
    with multiple filings must be manually aggregated before the plans can be classified.

•   Plan sponsor data address information must be manually entered into CFS to process
    refunds.

Obsolete and antiquated technologies:

PBGC’s information systems employ obsolete and antiquated technologies that pose
additional risk to the availability of financially significant systems. These technologies are
unsupported and add to the challenges to integrate PBGC’s systems in an IT infrastructure
that lacks a cohesive architecture and design.

A Federal agency’s ability to effectively and efficiently maintain and modernize its existing IT
environment depends primarily on how well it employs certain IT management controls that
are embodied in statutory requirements, Federal guidance, and best practices. Among other
things, these controls include strategic planning and performance measurement, portfolio-
based investment management, human capital management, enterprise architecture (and
supporting segment architecture) development and use, and responsibility and
accountability for modernization management.

If managed effectively, IT investments can have a dramatic impact on an organization’s
performance and accountability. If not correctly managed, they can result in wasteful
spending and lost opportunities for achieving mission goals and improving mission
performance. PBGC had several false starts in modernizing its systems and applications
that have either been abandoned, such as the suspension of work on the Premium and
Practitioner System to replace PAS, or have been ineffective in leading to the integration of
its financially significant systems. Unless PBGC develops and implements a well designed
IT architecture and infrastructure to guide and constrain modernization projects, it risks
investing time and resources in systems that do not reflect the Corporation’s priorities, are
not well integrated, are potentially duplicative, and do not optimally support mission
operations and performance.

To its credit, PBGC began to develop an overall strategy, but much work remains before the
strategy can be completed and implemented. Steps PBGC has taken include the following:




                                            19
   •   Continued work on its Enterprise Target Architecture (ETA), which provides the road
       map for all PBGC system development and integration, including financial management
       system integration.

   •   Implemented interface enhancements for CFS, including the payroll interface
       modernization, procurement interface, travel interface, and invoice automation. These
       interfaces provide additional automated capabilities for CFS and reduce the amount of
       manual data inputs for certain transactions.

       However, major work remains to be completed to provide PBGC with integrated financial
       management capabilities. PBGC plans to implement the Trust Accounting and FY File
       System (TAS), which is currently in the design phase. TAS will replace existing financial
       applications Portfolio Accounting and Management (PAM), FY File, TIS, and TIS
       Transfer. Additionally, TAS will have automated interfaces with the CMS, CFS, and
       Integrated Present Value of Future Benefits (IPVFB). TAS implementation is currently
       planned for August 2012. Additionally, PBGC has identified future capabilities in its
       financial management to-be architecture including a procurement system a and online
       budgeting system.

       Recommendation:

       o   PBGC needs to develop and execute a plan to integrate its financial management
           systems in accordance with OMB Circular A-127. (OIG Control # FS-07-18)

                                   ***********************************

The internal control report recommendations status is presented in Exhibit I.

This report is intended for the information and use of the management and Inspector General of
PBGC and is not intended to be and should not be used by anyone other than these specified
parties.


A1
Calverton, Maryland
November 14, 2011




                                                20
             EXHIBIT I - Status of Internal Control Report Recommendations


Prior Year Internal Control Report Recommendation Closed During FY 2011:

Recommendation                  Date Closed     Original Report Number
FS-10-06                        11/2/2011       AUD-2011-3/FA-10-69-2

Prior Year Internal Control Report Recommendation Moved to Management Letter
During FY 2011:

Recommendation                  Original Report Number
FS-07-06                        2008-2/FA-0034-2

Open Recommendations as of September 30, 2011:

Recommendation                  Report
Prior Years'
 FS-07-04 *Modified             2008-2/FA-0034-2
 FS-07-07                       2008-2/FA-0034-2
 FS-07-08                       2008-2/FA-0034-2
 FS-07-09                       2008-2/FA-0034-2
 FS-07-10                       2008-2/FA-0034-2
 FS-07-11                       2008-2/FA-0034-2
 FS-07-12 *Modified             2008-2/FA-0034-2
 FS-07-13                       2008-2/FA-0034-2
 FS-07-14                       2008-2/FA-0034-2
 FS-07-15                       2008-2/FA-0034-2
 FS-07-17                       2008-2/FA-0034-2
 FS-07-16                       2008-2/FA-0034-2
 FS-07-18                       2008-2/FA-0034-2
 FS-08-01 *Modified             AUD-2009-2/FA-08-49-2
 FS-08-02 *Modified             AUD-2009-2/FA-08-49-2
 FS-08-03 *Modified             AUD-2009-2/FA-08-49-2
 FS-09-01                       AUD-2010-2/FA-09-64-2
 FS-09-02                       AUD-2010-2/FA-09-64-2
 FS-09-03                       AUD-2010-2/FA-09-64-2
 FS-09-04                       AUD-2010-2/FA-09-64-2
 FS-09-05 *Modified             AUD-2010-2/FA-09-64-2
 FS-09-06 *Modified             AUD-2010-2/FA-09-64-2
 FS-09-07                       AUD-2010-2/FA-09-64-2
 FS-09-08 **2                   AUD-2010-2/FA-09-64-2
 FS-09-09 **                    AUD-2010-2/FA-09-64-2
 FS-09-10 **                    AUD-2010-2/FA-09-64-2
 FS-09-11 **                    AUD-2010-2/FA-09-64-2
 FS-09-12                       AUD-2010-2/FA-09-64-2
 FS-09-13                       AUD-2010-2/FA-09-64-2
 FS-09-14                       AUD-2010-2/FA-09-64-2
 FS-09-15                       AUD-2010-2/FA-09-64-2




                                          21
               EXHIBIT I - Status of Internal Control Report Recommendations


Recommendation                         Report
 FS-09-16                               AUD-2010-2/FA-09-64-2
 FS-09-17 *Modified                     AUD-2010-2/FA-09-64-2
 FS-09-18                               AUD-2010-2/FA-09-64-2
 FS-09-19                               AUD-2010-2/FA-09-64-2
 FS-09-20                               AUD-2010-2/FA-09-64-2
 FS-10-01                              AUD-2011-3/FA-10-69-2
 FS-10-02                              AUD-2011-3/FA-10-69-2
 FS-10-03 *Modified                     AUD-2011-3/FA-10-69-2
 FS-10-04                              AUD-2011-3/FA-10-69-2
 FS-10-05                              AUD-2011-3/FA-10-69-2
FY Ended September 30, 2011
 FS-11-01                               AUD-2012-1/FA-11-82-1
 FS-11-02                               AUD-2012-1/FA-11-82-1
 FS-11-03                               AUD-2012-1/FA-11-82-1
 FS-11-04                               AUD-2012-1/FA-11-82-1
 FS-11-05                               AUD-2012-1/FA-11-82-1
 FS-11-06                               AUD-2012-1/FA-11-82-1
 FS-11-07                               AUD-2012-1/FA-11-82-1
 FS-11-08                               AUD-2012-1/FA-11-82-1
 FS-11-09                               AUD-2012-1/FA-11-82-1
 FS-11-10                               AUD-2012-1/FA-11-82-1
 FS-11-11                               AUD-2012-1/FA-11-82-1
 FS-11-12                               AUD-2012-1/FA-11-82-1
 FS-11-13                               AUD-2012-1/FA-11-82-1
 FS-11-14                               AUD-2012-1/FA-11-82-1
 FS-11-15                               AUD-2012-1/FA-11-82-1
 FS-11-16                               AUD-2012-1/FA-11-82-1
 FS-11-17                               AUD-2012-1/FA-11-82-1


1
  *Modified: indicates that the previously reported recommendation has been slightly modified to reflect
current conditions.
2
  **Recommendation remains open pending completion by management to acknowledge closure. This
recommendation was not included in the FY 2011 financial report.




                                                    22
   Report on Internal Controls Related to the
    Pension Benefit Guaranty Corporation’s
Fiscal Year 2011 and 2010 Financial Statements


    Audit Report AUD-2012-2 / FA-11-82-2




                 Section II

        Management Comments
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
